The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                         OFFICE OF INSPECTOR GENERAL
                                 WASHINGTON, DC 20436



September 12, 2012                                                            OIG-KK-014


Chairman Williamson:

This memorandum transmits the Office of Inspector General’s final report, Evaluation of
the Trade Remedy Assistance Office, OIG-ER-12-11. This evaluation focused on
whether the Commission’s Trade Remedy Assistance Office was fulfilling its duties
under 19 USC 1339. In finalizing this report, we analyzed management’s comments to
our draft report and have included those comments in their entirety as Appendix A.

The evaluation confirmed the Commission has been fulfilling their duties under the
statute, and identified two areas for improvement. This report contains three
recommendations to address the improvement areas. In the next 30 days, please provide
me with your management decisions describing the specific actions that you will take to
implement each recommendation

Thank you for the courtesies extended to the evaluators during this review.




Philip M. Heneghan
Inspector General
                         U.S. International Trade Commission
                                         Evaluation Report


                                      Table of Contents
Results of Evaluation .................................................................................... 1

Background on Trade Remedy Assistance Office ..................................... 2

Improvement Areas and Recommendations.............................................. 4
   Improvement Area 1: Establish Guidelines for Record Keeping .................................. 4

   Improvement Area 2: Improve Outreach and Coordination with Other Agencies........ 5

Management Comments and Our Analysis ............................................... 7

Objective, Scope, and Methodology ............................................................ 7

Appendix A: Management Comments on Draft Report......................... A

Appendix B: Excerpt from 19 USC 1339...................................................B




OIG-ER-12-11                                       -i-
                      U.S. International Trade Commission
                                   Evaluation Report


                              Results of Evaluation
The objective of this evaluation was to answer the following question:

       Is the Trade Remedy Assistance Office fulfilling its duties under 19 USC 1339?

Yes. The Trade Remedy Assistance Office is fulfilling its duties under the statute.

The statute requires that the Trade Remedy Assistance Office be established, as a
separate office, to provide full information to the public concerning the remedies and
benefits available under the trade laws, as well as the petition and application procedures
for obtaining them. The statute also requires the office to provide technical and legal
assistance and advice to eligible small businesses to enable them to prepare and file
petitions in order to seek to obtain the remedies and benefits available.

The Commission established the Trade Remedy Assistance Office, as a separate office
within the Office of External Relations, which is not a part of the Office of Operations.

The Trade Remedy Assistance Office provided information to the public and small
businesses regarding trade remedies by providing information on its webpage and over
the phone. The webpage contained an overview of the trade remedies available and the
various services provided by the office, as well as a phone number to contact the office
directly.

In addition, the Trade Remedy Assistance Office directed people who contacted the
office to the controlling law or regulation related to their claim and provided them with
an overview of the International Trade Commission’s operations. The office offered
interested people information to assist with their claim, including procedural information
related to filing a petition or complaint.

The Trade Remedy Assistance Office provided eligible small businesses with technical
and legal assistance and advice involving the preparation and filing of petitions and
complaints at the Commission in order to enable them to seek the remedies and benefits
available under the trade laws. The office did this by providing information on the
requirements of a petition or complaint and by reviewing and providing feedback on draft
complaints and petitions to ensure that the basic requirements needed to file were met.
Finally, the Trade Remedy Assistance Office coordinated with either the Office of Unfair
Import Investigations or the Office of Investigations to provide the standard review those
offices offer to all parties filing a complaint or petition at the Commission.

We surveyed small businesses who confirmed that the Trade Remedy Assistance Office
provided information and assistance consistent with the requirements under the statute.




OIG-ER-12-11                               -1-
                         U.S. International Trade Commission
                                         Evaluation Report


These small businesses also reported high levels of satisfaction with the services provided
by the Trade Remedy Assistance Office and the other offices at the Commission.

This report includes background on the Trade Remedy Assistance Office and a discussion
of the two areas identified that could improve operations—(1) Establish guidelines for
record keeping and (2) Improve outreach and coordination with other agencies.



                 Background on Trade Remedy Assistance Office
Section 339 of the Tariff Act of 1930, as added by section 221 of the Trade and Tariff
Act of 1984, established the requirement for a Trade Remedy Assistance Office to
provide full information to the public concerning remedies and benefits available under
the trade laws, information about the petition and application procedures for obtaining the
remedies and benefits, and to provide technical assistance to enable small businesses to
prepare and file petitions to obtain those remedies and benefits 1. The office was
originally part of what is now the Office of Unfair Import Investigations, until the
Omnibus Trade and Competitiveness Act of 1988 amended the Tariff Act and called for
the Trade Remedy Assistance Office to function as “a separate office” 2.

When drafting the 1988 amendment, Congress considered several additional means of
assisting small businesses. A proposed Senate amendment sought to establish an Office
of Small Business Trade Remedy Assistance in the Department of Commerce 3. The
director of that office would have been required to establish a system for paying
reasonable expenses incurred by eligible small businesses in connection with any
administrative proceeding under any trade law 4. In addition, the House Ways and Means
Committee proposed the idea of a private initiative that would bring together corporate,
legal, and academic communities to establish an independent organization that would
provide pro bono legal assistance to small businesses that lacked adequate resources to
seek trade remedies on their own 5. Ultimately, neither the House nor Senate amendments
providing for more extensive assistance were included in the final bill.

Currently, the Trade Remedy Assistance Office is housed in the Office of External
Relations, where one attorney spends about one-half of his time providing information
and assistance on trade issues and the remainder on External Relations business.




1
  Pub. L. No. 98-573, § 221, 90 Stat. 2989 (1984).
2
  H.R. Rep. No. 100-40, pt. 1, at 172 (1987).
3
  H.R. Rep. No. 100-576, at 1082 (1988)
4
  Id.
5
  H.R. Rep. No. 100-40, pt. 1, at 173 (1987).

OIG-ER-12-11                                         -2-
                         U.S. International Trade Commission
                                        Evaluation Report


In addition to providing general trade-related information, the Trade Remedy Assistance
Office provides information relating to specific trade issues upon inquiry. If the issue is
more appropriately addressed by another agency, the Trade Remedy Assistance Office
will direct the requestor to the applicable agency. Responding to short informational
inquiries from the public are the most frequent type of assistance the Trade Remedy
Assistance Office provides.

The Trade Remedy Assistance Office, in coordination with other agencies responsible for
administering a trade law, is also tasked with providing technical and legal assistance to
eligible small businesses to enable them to prepare and file petitions and to seek to obtain
the remedies and benefits available under the trade laws 6. Congress added the
requirement that the Trade Remedy Assistance Office provide legal assistance through
the 1988 amendment, finding that a number of small firms lacked the technical and legal
expertise to seek relief 7. Importantly, the House Report noted that businesses that seek
assistance and advice from the Trade Remedy Assistance Office should not expect this to
serve as a substitute for legal representation 8.

Upon inquiry, the Trade Remedy Assistance Office offers to mail a packet of materials
including a summary of statutory provisions related to import relief, an overview of
Commission operations, guidelines and requirements for the relevant trade petition or
complaint, and a sample petition or complaint, to the requestor. Most businesses or
individuals who contact the Trade Remedy Assistance Office do not proceed past this
stage, citing either a lack of time, money, or resources for representation; it has been
noted that representation has become an essential part of the trade remedy process,
particularly with the prevalence of Administrative Protective Orders and the protection of
sensitive trade information.

For eligible small businesses, the Trade Remedy Assistance Office will offer to assist
with preparing a draft complaint or petition and discuss with the requestor the trade issue
in more detail to ensure that the requirements needed to file are met 9. When determining
eligibility for assistance, the Trade Remedy Assistance Office consults the Small
Business Administration’s size standards for small businesses.

Once the Trade Remedy Assistance Office has worked with the preparer to formulate a
draft, it will arrange for members of the Office of Unfair Import Investigations or the
Office of Investigations to review the draft. Both these offices offer to provide unofficial
pre-filing review to all potential petitioners, regardless of size. This review is distinct
from the one provided by the Trade Remedy Assistance Office, focusing instead on the

6
  Pub. L. No. 98-573, § 221, 90 Stat. 2990 (1984).
7
  H.R. Rep. No. 100-40, pt. 1, at 173 (1987).
8
  Id.
9
  The trade laws applicable to the Trade Remedy Assistance Office are defined in 19 U.S.C. § 1339(c)(2);
pleading requirements will vary among the different trade laws.

OIG-ER-12-11                                      -3-
                      U.S. International Trade Commission
                                   Evaluation Report


substance of the complaint or petition, the quality of the complaint or petition, areas that
should be strengthened, and any deficiencies that might cause delays after the complaint
or petition is filed. Few small businesses without representation reach the actual filing
stage, or even the draft review stage. Small businesses who drafted a complaint, had it
reviewed, but ultimately chose not to file, offered a variety of reasons for not doing so,
including lack of finances, need for legal representation, lack of support from other
companies, and settling the issue on their own.



              Improvement Areas and Recommendations

                                   Improvement Area 1:
                         Establish Guidelines for Record Keeping


It is important that the Trade Remedy Assistance Office have clear guidelines for
recording, maintaining, and destroying its work. Uniform record keeping ensures proper
identification, storage, and disposal of documents, and allows the Commission to assess
its work and impact.

Presently, there are no official policies or procedures in place for the retention and
disposition of the information and documents created, collected, or provided by the Trade
Remedy Assistance Office. Furthermore, the Commission’s Records Disposition
Schedule does not contain any guidelines specifically for the Trade Remedy Assistance
Office. Documents from the Trade Remedy Assistance Office consisted mostly of
handwritten notes, correspondence stored on email, drafts of complaints, and various
other materials exchanged during the communication process. No documents were stored
electronically other than email.

Prior to 2010, the Trade Remedy Assistance Office tracked the number of calls it
received and provided this information for inclusion in the Commission’s annual report.
The Trade Remedy Assistance Office only noted the number of calls and no identifying
information about the caller or the type of information they sought was recorded. After
the requirement to provide this information for the annual report was discontinued in
2010, the Trade Remedy Assistance Office stopped tracking calls altogether. Then in
early 2012, the Trade Remedy Assistance Office began recording basic information on
those seeking advice or assistance (name, date, type of request), but no official policy has
been created to address the documents created in response to requests.

The Trade Remedy Assistance Office received many calls regarding circumstances where



OIG-ER-12-11                                -4-
                      U.S. International Trade Commission
                                   Evaluation Report


the Commission was either the inappropriate forum for the inquiry, or the question was
easily and quickly answered. The office also received a fair amount of calls relevant to
the Commission, and offered to send additional materials to these people. The Trade
Remedy Assistance Office benefits from the retention of such information, both in order
to follow up with the potential petitioner and for further analysis to better understand the
requests made by small businesses.

In addition, the Trade Remedy Assistance Office retained copies of draft petitions and
complaints it had reviewed. The Trade Remedy Assistance Office should evaluate the
value of this practice, as it conflicts with those of the Office of Unfair Import
Investigations and Office of Investigations, who routinely destroy these drafts and any
comments after review with the petitioner or complainant.

Recommendation 1: That the Commission establish an official written policy to address
the retention and disposition of information and documents created, collected, or
provided by the Trade Remedy Assistance Office.




                               Improvement Area 2:
               Improve Outreach and Coordination with Other Agencies


While the Trade Remedy Assistance Office provides information and assistance on a
variety of trade issues and, when applicable, directs inquirers to the appropriate agency
other than the Commission, greater coordination between agencies with international
trade jurisdiction would be beneficial.

The Trade Remedy Assistance Office is a unique office among agencies administering
trade laws in that it is a statutorily mandated office, whose purpose is to provide
independent information and assistance to small businesses. Other agencies, such as
Department of Commerce and the United States Trade Representative (Trade
Representative), do not have such an office.

The Department of Commerce does have a Petition Counseling Analysis Unit, to assist
Title VII petitioners who must file antidumping or countervailing duties petitions
separately with the Department of Commerce and the Commission, but that Unit provides
petition information and assistance to all businesses regardless of size.




OIG-ER-12-11                                -5-
                      U.S. International Trade Commission
                                   Evaluation Report


The Trade Representative does have a petition process whereby a company can file a
complaint under Section 301 of the Trade Act of 1974 asking the Trade Representative to
take action against a foreign unfair trade practice. The Trade Representative’s
relationship with the Commission is based primarily on drawing on the Commission’s
resources for advice and information in support of the Trade Representative’s role in
negotiating trade agreements and in the formulation of U.S. trade policy. Recently, the
Trade Representative launched a small business initiative to assist small businesses
involved in international trade. Perhaps due to its unique status and limited visibility,
both the public and other agencies are generally unaware of the services provided by the
Commission’s Trade Remedy Assistance Office.

Individuals and small businesses contacted during this evaluation stated that they were
pleasantly surprised to learn of the services available through the Trade Remedy
Assistance Office, though a few noted that finding the right agency and office for their
specific question was daunting as there are a number of different agencies that deal with
international trade. Presently, agencies that administer trade laws do not have easily
identifiable links to one another’s websites, and there is no single government site that
offers a complete list of agencies administering trade laws and explains the services they
provide.

Similarly, while some staff members at other agencies that administer trade laws were
familiar with the Commission’s Office of Unfair Import Investigations and the Office of
Investigations, they were unaware of the Trade Remedy Assistance Office. Members of
these agencies indicated that when faced with a business who is considering filing a Title
VII petition or a 337 complaint, they direct the parties to Office of Investigations and
Office of Unfair Import Investigations respectively. The agency representatives were
surprised to learn of the services offered by the Trade Remedy Assistance Office.

Simply having access to basic information and guidance can be quite helpful to small
businesses, even for those who choose not to file a complaint or petition. One of the
business’s we surveyed, drafted a 337 complaint with the assistance of the Trade Remedy
Assistance Office, but chose not to file after settling with the alleged infringer. He noted
that a properly prepared draft of a 337 complaint likely helped in achieving a favorable
settlement.

Since the Department of Commerce is directly involved in trade remedy assistance, and
given that the Trade Representative has pushed in recent years for ways of assisting small
businesses, there exists an opportunity for collaboration among these and other agencies
to help inform small businesses of available assistance.




OIG-ER-12-11                                -6-
                       U.S. International Trade Commission
                                    Evaluation Report


Recommendation 2: That the Commission provide links on the Trade Remedy
Assistance Office webpage to other agencies and offices that administer trade law, and
coordinate with other agencies and offices to provide a link to the Trade Remedy
Assistance Office on their websites.

Recommendation 3: That the Trade Remedy Assistance Office coordinate with other
agencies on ways to promote awareness and access to trade remedy information and
assistance for small businesses.



                Management Comments and Our Analysis
On September 7, 2012, Chairman Irving Williamson provided management comments on
the draft report. He concurred with the findings and agreed to address the
recommendations identified in the report.




                     Objective, Scope, and Methodology
Objective:

         Is the Trade Remedy Assistance Office fulfilling its duties under 19 USC 1339?

Scope:

         We reviewed inquiries and requests to the Trade Remedy Assistance Office from
         the public and small businesses dating back three years. We reviewed 2-3 cases
         from each phase of the Trade Remedy Assistance Office process. The phases are
         (1) parties who have brief informational calls with the office, (2) parties who had
         subsequent contact with the office, and (3) parties who submitted a draft
         complaint or petition for review.

         This evaluation was limited by the lack of records kept by the Trade Remedy
         Assistance Office.

         Entrance Conference:          June 5, 2012
         Exit Conference:              July, 30 2012




OIG-ER-12-11                                 -7-
                    U.S. International Trade Commission
                                 Evaluation Report


Methodology:

   x   We reviewed the statute applicable to the Trade Remedy Assistance Office.
       (Appendix B)

   x   We reviewed regulations applicable to the Trade Remedy Assistance Office.

   x   We identified methods used to contact Trade Remedy Assistance Office (phone,
       email, etc.) and the number of requests received.

   x   We analyzed the type of information and assistance provided by the Trade
       Remedy Assistance Office.

   x   We reviewed the procedure for handling incoming requests from the public and
       small businesses, including a review of the office process map.

   x   We reviewed the process for consulting with other offices.

   x   We interviewed members of Trade Remedy Assistance Office and their liaisons in
       the other offices, as well as members of other agencies administering trade laws.

   x   We surveyed members of the public and small business who have requested
       and/or received assistance from the Trade Remedy Assistance Office.




OIG-ER-12-11                              -8-
               U.S. International Trade Commission
                            Appendix


     Appendix A: Management Comments on Draft Report




OIG-ER-12-11                  -A-
                               U.S. International Trade Commission
                                                   Appendix B




         Appendix B: Excerpt from 19 USC 1339

TITLE 19 - CUSTOMS DUTIES - CHAPTER 4 - TARIFF ACT OF 1930 - SUBTITLE II - SPECIAL
PROVISIONS - Part II - United States International Trade Commission - Sec. 1339. Trade Remedy Assistance
Office

(a) Establishment; public information
There is established in the Commission a separate office to be known as the Trade Remedy Assistance Office which
shall provide full information to the public upon request and shall, to the extent feasible, provide assistance and
advice to interested parties concerning -
          (1) remedies and benefits available under the trade laws, and
          (2) the petition and application procedures, and the appropriate filing dates, with respect to such remedies
         and benefits.

(b) Procedural assistance by Office and other agencies
The Trade Remedy Assistance Office, in coordination with each agency responsible for administering a trade law,
shall provide technical and legal assistance and advice to eligible small businesses to enable them -
          (1) to prepare and file petitions and applications (other than those which, in the opinion of the Office, are
         frivolous); and
          (2) to seek to obtain the remedies and benefits available under the trade laws, including any administrative
         review or administrative appeal thereunder.

(c) Definitions
For purposes of this section -
         (1) The term "eligible small business" means any business concern which, in the agency's judgment, due to
         its small size, has neither adequate internal resources nor financial ability to obtain qualified outside
         assistance in preparing and filing petitions and applications for remedies and benefits under trade laws. In
         determining whether a business concern is an "eligible small business", the agency may consult with the
         Small Business Administration, and shall consult with any other agency that has provided assistance under
         subsection (b) of this section to that business concern. An agency decision regarding whether a business
         concern is an eligible small business for purposes of this section is not reviewable by any other agency or
         by any court.

         (2) The term "trade laws" means -
                  (A) chapter 1 of title II of the Trade Act of 1974 (19 U.S.C. 2251 et seq., relating to injury caused
                  by import competition);
                  (B) chapters 2 and 3 of such title II [19 U.S.C. 2271 et seq., 2341 et seq.] (relating to adjustment
                  assistance for workers and firms);
                  (C) chapter 1 of title III of the Trade Act of 1974 (19 U.S.C. 2411 et seq., relating to relief from
                  foreign import restrictions and export subsidies);
                  (D) subtitle IV of this chapter (relating to the imposition of countervailing duties and antidumping
                  duties);
                  (E) section 1862 of this title (relating to the safeguarding of national security); and
                  (F) section 1337 of this title (relating to unfair practices in import trade).



OIG-ER-12-11                                        -B-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
